                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 TH S TREET , R OOM 0429
                                                                            K ANSAS C ITY , MO 64106
March 12, 2012

Report Number: A-07-11-02758

Ms. Susan E. Birch
Executive Director
Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203-1818

Dear Ms. Birch:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Review of the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program in Colorado. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S. C. App., required that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-11-02758 in all correspondence.

                                             Sincerely,


                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Ms. Susan E. Birch


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





        REVIEW OF THE

QUARTERLY MEDICAID STATEMENT

   OF EXPENDITURES FOR THE 

 MEDICAL ASSISTANCE PROGRAM

         IN COLORADO





                       Daniel R. Levinson

                        Inspector General 


                          March 2012 

                         A-07-11-02758 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (the State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), summarizes, by category of service, actual Medicaid
expenditures for each quarter and is used by CMS to reimburse States for the Federal share of
Medicaid expenditures. The amounts reported on the CMS-64 report and its attachments must
be actual expenditures with supporting documentation.

Section 1927(b)(2) of the Act requires States to provide drug utilization data to CMS and the
manufacturer. Pursuant to CMS guidance, States also report drug rebate accounts-receivable
data on the Medicaid Drug Rebate Schedule (Form CMS-64.9R).

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital services and physician services. States also may offer certain optional
services, such as Colorado’s Medicaid managed care program, as long as the services are
included in their approved State plans.

OBJECTIVE

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

SUMMARY OF FINDINGS

For the quarter ended March 31, 2009, the majority of the Medicaid costs that the State agency
claimed which totaled approximately $827 million (approximately $487 million Federal share)
was adequately supported by actual recorded expenditures. However, the State agency did not
have sufficient controls regarding interest, accrual, collections, and reporting of drug rebate
interest. As a result, the State agency did not account for the collection of interest due or report
$9,719 (Federal share) in drug rebate interest on the CMS-64 report for that quarter.



                                                  i
In addition, the State agency had inadequate controls related to its financial and accounting
policies and procedures, including vulnerabilities that could occur through adjustments being
reported in an incorrect period rather than as a prior period adjustment on the CMS-64 report, the
use of manual spreadsheets, and the use of more than one data processing system.

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, some policies and procedures, as well as some internal controls, could be strengthened.
Internal control weaknesses could result in the State agency’s reporting incorrect expenditures
for Federal reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

   	 report $9,719 (Federal share) in drug rebate interest as a prior period adjustment on its
      next CMS-64 report;

   	 determine the drug rebate interest that should have been reported in previous quarters and
      report those amounts as prior period adjustments on its next CMS-64 report;

   	 ensure that drug rebate interest was correctly reported in subsequently filed CMS-64
      reports, and if not, determine the correct amounts and report them as prior period
      adjustments on its next CMS-64 report; and

   	 strengthen internal controls to ensure that drug interest rebates are correctly reported
      during the quarter in which the interest on the rebates accrued, and that in all other
      respects Medicaid expenditures are correctly calculated, assigned, and claimed in
      accordance with the approved State plan.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency partially agreed with our
recommendations and described corrective actions that it implemented or planned to implement.
However, the State agency took exception to the wording of our fourth recommendation in our
draft report, which the State agency described as a “blanket statement that it [i.e., the State
agency] has inadequate controls related to its financial and accounting policies and procedures.”

While we agree with the State agency’s point regarding our fourth recommendation and did not
identify any specific dollar recoveries other than the drug rebate interest, we identified functional
areas for which the internal controls could be strengthened. Accordingly, we continue to
maintain that further strengthening of the overall internal controls would enhance the State
agency’s accurate reporting of Medicaid expenditures in light of the other vulnerabilities in
internal controls that we have identified in this report.


                                                 ii
The State agency's comments appear in their entirety as the Appendix.




                                              III 

                                                       TABLE OF CONTENTS 




INTRODUCTION ............... ........... ...... ....... .. .. ..... ................ ................... ...................... .. ........... . 1 


       BACKGROUND ................. .................. ........... .... ........ ...................... .................. ... .............. 1 

          Medicaid Program .. .. .... ............... ..... .... ..... ........ .... ....................... ....... ...... .. ......... ...... .. 1 

          American Recovery and Reinvestment Act of 2009 .................... .. ............................... 1 

          Quarterly Medical Statement of Expenditures for the 

            Medical Assistance Program .................. .............. .... ................................... ............. 1 

          Quarterly Medical Statement of Expenditures Oversight.. .......................... .................. 2 

          Medicaid Management Information System ...... ........................................ ............ ....... 2 

          Use of Colorado Data Systems to Process Medicaid Payments to Providers ............... 2 


       OBJECTIVE, SCOPE, AND METHODOLOGY .............................. ... ................ .. .............. 2 

          Objective...................................... ..... ........... ........... ....... ................. ...... ............ ............. 2 

          Scope .... .... ................................... ..................... ........ ........................... .. ................... .. ... 2 

          Methodology.......... ...... ........... ..... ...... .. ................. ... ............................. ........ ................. 3 


FINDINGS AND RECOMMENDATIONS ... ........... ... ...................... ... .... ... .......... ..... .. .......... .. 4 


       REPORTING OF INTEREST RECEIVED ON DRUG REBATE COLLECTIONS .. ....... .4 


       WEAKNESSES IN INTERNAL CONTROLS .. ........ ........ ........ .. ... ........ ......... ...... .. .. .......... 5 


       RECOMMENDATIONS .. ..... .................. ..... .. .. ... .. .. ... .. ............. .... ..... ....... .... ... .. .. ..... .......... . 6 


       STATE AGENCY COMMENTS AND OFFICE OF 

         INSPECTOR GENERAL RESPONSE ....................................... :... .. .................... ...... ..... 6 


APPENDIX

       STATE AGENCY COMMENTS




                                                                           IV
                                              INTRODUCTION 


 BACKGROUND

 Medicaid Program

 Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
 medical assistance to low-income individuals and individuals with disabilities. The Federal and
 State Governments jointly administer and fund the Medicaid program. At the Federal level, the
 Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
 administers its Medicaid program in accordance with a CMS-approved State plan. Although the
 State has considerable flexibility in designing and operating its Medicaid program, it must
 comply with applicable Federal requirements. In Colorado, the Department of Health Care
 Policy and Financing (the State agency) administers the Medicaid program.

 Pursuant to section 1905(b) of the Act, the Federal Government pays its share ofa State's
 medical assistance expenditures under Medicaid based on the Federal medical assistance
 percentage (FMAP), which varies depending on the State's relative per capita income. Although
 FMAPs are adjusted annually for economic changes in the States, Congress may increase
 FMAPs at any time.

 American Recovery and Reinvestment Act of 2009

  The American Recovery and Reinvestment Act of2009 (Recovery Act), P.L. No. 111-5, enacted
. February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
  programs in a period of economic downturn. For the recession adjustment period
  (October 1, 2008, through December 31, 2010), the Recovery Act provided an estimated
  $87 billion in additional Medicaid funding based on temporary increases in States' FMAPs. I
  Section 5000 of the Recovery Act provides for these increases to help avert cuts in health care
  payment rates, benefits, or services and to prevent changes to income eligibility requirements
  that would reduce the number of individuals eligible for Medicaid. Sections 5001(a), (b), and (c)
  of the Recovery Act provide that a State's increased FMAP during the recession adjustment
  period will be no less than its 2008 FMAP increased by 6.2 percentage points and that a State
  may receive an increase greater than 6.2 percentage points based on increases to its average
  unemployment rate.

 With the Recovery Act funding, Colorado's FMAP for Medicaid expenditures increased from
 50.00 percent to 58.78 percent for the quarter ended March 31, 2009.

 Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

 The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical 

 Assistance Program (CMS-64 report), summarizes, by category of service, actual Medicaid 

 expenditures for each quarter and is used by eMS to reimburse States for the Federal share of 


 I The Education Jobs and Medicaid Assistance Act (P.L. No. 111-226, section 201) extended the recession 

 adjustment period for the increased FMAP through June 30, 2011. 

Medicaid expenditures. The amounts reported on the CMS-64 report and its attachments must
be actual expenditures with supporting documentation.

Section 1927(b)(2) of the Act requires States to provide drug utilization data to CMS and the
manufacturer. Pursuant to CMS guidance, States also report drug rebate accounts-receivable
data on the Medicaid Drug Rebate Schedule (Form CMS-64.9R).

Quarterly Medicaid Statement of Expenditures Oversight

On a quarterly basis, CMS Regional office staff members perform a desk review on the amounts
reported on the CMS-64 report, a review that is designed to provide CMS with limited assurance
that the report complies with applicable Federal laws, regulations, and policy guidance and is
filed in compliance with CMS reporting requirements.

Medicaid Management Information System

Section 1903(r)(1)(a) of the Act states that, to receive Federal funding for the use of automated
data systems in administration of the Medicaid program, a State must have a mechanized claims
processing and information retrieval system. Pursuant to chapter 11, section 11100, of the CMS
State Medicaid Manual, this mechanized system is the Medicaid Management Information
System (MMIS). An MMIS is a system of software and hardware used to process Medicaid
claims and manage information about Medicaid beneficiaries and services. This system may be
operated by either a State agency or a fiscal agent, which is a private contractor hired by the
State.

Use of Colorado Data Systems to Process Medicaid Payments to Providers

Due to system limitations of Colorado’s MMIS, some Medicaid expenditures are also processed
through the Colorado Financial Reporting System (COFRS). COFRS is a financial information
system that maintains the official accounting records for the State of Colorado government.
Most financial transactions for the State government are processed directly in COFRS. All
financial activity for the State government is eventually recorded in COFRS, even if it was first
processed in a specialized accounting system operated by a State agency.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claim for Federal reimbursement of
Medicaid expenditures was adequately supported by actual recorded expenditures.

Scope

The State agency claimed Medicaid costs totaling approximately $827 million (approximately
$487 million Federal share) for the quarter ended March 31, 2009. Our review period for
reviewing internal controls included October 1, 2008, through March 31, 2010, with expenditure

                                                2

testing conducted on our selected quarter of interest (the quarter ended March 31, 2009). Our
review covered six judgmentally selected line items. These six line items totaled approximately
$442 million (approximately $261 million Federal share), which constituted approximately
54 percent of the State agency' s claimed costs for the quarter? The six line items were for
Inpatient Hospital Services, Nursing Facility Services, Physicians' Services, Outpatient Hospital
Services, Prescribed Drugs, and Medicaid Managed Care Organization Services.

We limited our review of supporting documentation to records that the State agency maintained;
we did not evaluate claims submitted by providers to determine their validity. Our objective did
not require a review of the overall internal control structure of the State agency. Therefore, we
limited our internal control review to the State agency's procedures for aggregating Medicaid
expenditures on the CMS-64 report and reconciling these expenditures to detailed supporting
records.

We conducted fieldwork at the State agency in Denver, Colorado, from October 2010 to
April 2011.

Methodology

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws, regulations, and guidance, and applicable portions of
        the Colorado State Medicaid plan;

    • 	 interviewed CMS officials responsible for monitoring the CMS-64 report to gain an
        understanding of the process used by CMS to review the CMS-64 report;

    • 	 interviewed State agency officials to gain an understanding of their policies and
        procedures for reporting Medicaid expenditures on the CMS-64 report and of the systems
        used by the State agency for reporting Medicaid costs;

    • 	 analyzed the State agency's procedures for aggregating Medicaid expenditures for the
        CMS-64 report to assess whether those procedures would produce a reasonable and
        accurate claim for Federal reimbursement;

    • 	 reviewed the State agency's process for reconciling expenditures reported on the CMS-64
        report to supporting accounting records for the period October 1, 2008, through
        March 31, 2010;

    • 	 assessed the overall accuracy of amounts claimed on the CMS-64 report by tracing those
        amounts to supporting reports from the State agency's accounting system;




2We obtained the costs that the State agency claimed and the judgmentally selected costs that we reviewed from the
Form 64.9 Base of the CMS-64 repOIt; however, these amounts did not include adjustments.

                                                        3
   	 judgmentally selected for review the six line items (discussed above) on the CMS-64
      report;

   	 reviewed the CMS-64 report for the quarter ending March 31, 2009, and compared the
      amounts claimed for Federal reimbursement to the information in the State agency’s
      MMIS and COFRS and to the State agency’s accounting records;

   	 reviewed the information in the State agency’s MMIS to assess whether duplicate 

      payments occurred and to identify any errors in the MMIS data; and 


   	 discussed our results with State agency officials on September 22, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

For the quarter ended March 31, 2009, the majority of the Medicaid costs that the State agency
claimed which totaled approximately $827 million (approximately $487 million Federal share)
was adequately supported by actual recorded expenditures. However, the State agency did not
have sufficient controls regarding interest, accrual, collections, and reporting of drug rebate
interest. As a result, the State agency did not account for the collection of interest due or report
$9,719 (Federal share) in drug rebate interest on the CMS-64 report for that quarter.

In addition, the State agency had inadequate controls related to its financial and accounting
policies and procedures, including vulnerabilities that could occur through adjustments being
reported in an incorrect period rather than as a prior period adjustment on the CMS-64 report, the
use of manual spreadsheets, and the use of more than one data processing system.

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, some policies and procedures, as well as some internal controls, could be strengthened.
Internal control weaknesses could result in the State agency’s reporting incorrect expenditures
for Federal reimbursement.

REPORTING OF INTEREST RECEIVED ON DRUG REBATE COLLECTIONS

Federal regulations (42 CFR § 433.32(a)) require that the State agency “[m]aintain an accounting
system and supporting fiscal records to assure that claims [reported on the CMS-64 report] for
Federal funds are in accord with applicable Federal requirements.... Federal regulations (45 CFR
§ 92.20(a)) also state: “Fiscal control and accounting procedures of the State, as well as its
subgrantees ... must be sufficient to ... establish that such [Medicaid] funds have not been used in
violation of the restrictions and prohibitions of applicable statutes.”

                                                  4

Federal regulations at 2 CFR pt. 225 (formerly Office of Management and Budget Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments), Attachment A, section
A.2.a.(2), state: “Governmental units assume responsibility for administering Federal funds in a
manner consistent with underlying agreements, program objectives, and the terms and conditions
of the Federal award [i.e., the Medicaid program].”

The CMS State Medicaid Manual, section 2500.A, instructs the States to prepare a CMS-64
Summary Sheet reporting the Federal share of interest received on drug rebate collections.

For the quarter ended March 31, 2009, the State agency did not report the interest received on
drug rebate collections. Contrary to the provisions of the CMS State Medicaid Manual, the State
agency did not account for the Federal share of interest earned on drug rebates or report the
amount of drug rebate interest for that quarter to CMS. This resulted in the State agency
underreporting interest revenue on the CMS-64 report by $9,719 (Federal share).

Specifically, the State agency:

   	   did not have a subsidiary account receivables system that detailed all drug rebate 

        transactions, including adjustments;


   	   did not reconcile the general ledger control account to the subsidiary ledgers and to the
        CMS-64.9R report;

   	   did not reconcile the quarterly cash receipts log to the CMS-64.9R report;

   	   did not accrue interest on all overdue rebate balances; and

   	   did not report interest collections on the CMS-64 report Summary Sheet.

WEAKNESSES IN INTERNAL CONTROLS

Although the State agency’s internal controls were adequate to ensure that the majority of the
Medicaid costs that the State agency claimed and that we reviewed for this quarter were claimed
correctly, our finding indicates that some policies and procedures, as well as some internal
controls, can be strengthened. Internal control weaknesses could potentially negatively impact
the State’s reporting of expenditures on the CMS-64 report.

As mentioned above, we determined that the State agency did not have sufficient controls
regarding interest, accrual, collections, and reporting of drug rebate interest.

We also identified inadequate controls related to the State agency’s financial and accounting
policies and procedures, including vulnerabilities that could occur through adjustments being
reported in an incorrect period rather than as a prior period adjustment on the CMS-64 report, the
use of manual spreadsheets, and the use of more than one data processing system.

Specifically, we identified the following inadequacies in the State agency’s financial and
accounting policies and procedures:

                                                 5

   	   The State agency reported payments on the CMS-64 report that were related to a prior
        time period but were not reported as a prior period adjustment. This incorrect procedure
        could result in the State agency receiving an incorrect amount of Federal reimbursement.

   	   The State agency used manual spreadsheet calculations in its preparation of the CMS-64
        report for each quarter. Manual calculations increase the likelihood of errors in both
        payments and reporting.

   	   The State agency also used more than one data processing system (MMIS and COFRS)
        for costs claimed on the CMS-64 report because, according to State agency officials, of
        system limitations in the State agency’s MMIS. The use of more than one data
        processing system could result in a claim being paid more than once.

RECOMMENDATIONS

We recommend that the State agency:

   	 report $9,719 (Federal share) in drug rebate interest as a prior period adjustment on its
      next CMS-64 report;

   	 determine the drug rebate interest that should have been reported in previous quarters and
      report those amounts as prior period adjustments on its next CMS-64 report;

   	 ensure that drug rebate interest was correctly reported in subsequently filed CMS-64
      reports, and if not, determine the correct amounts and report them as prior period
      adjustments on its next CMS-64 report; and

   	 strengthen internal controls to ensure that drug interest rebates are correctly reported
      during the quarter in which the interest on the rebates accrued, and that in all other
      respects Medicaid expenditures are correctly calculated, assigned, and claimed in
      accordance with the approved State plan.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency partially agreed with our
recommendations and described corrective actions that it implemented or planned to implement.
For our second recommendation, the State agency said that it would work with CMS to
determine a reasonable number of previous quarters to review and would if necessary report drug
rebate interest as a prior period adjustment on its next CMS-64 report. The State agency also
took exception to the wording of our fourth recommendation in our draft report, which the State
agency described as a “blanket statement that it [i.e., the State agency] has inadequate controls
related to its financial and accounting policies and procedures.”



                                                6

While we agree with the State agency’s point regarding our fourth recommendation and did not
identify any specific dollar recoveries other than the drug rebate interest, we identified functional
areas for which the internal controls could be strengthened. We revised the report by removing
the references to inadequate controls, but the report continues to address the weaknesses in
internal controls that we identified. Accordingly, we continue to maintain that further
strengthening of the overall internal controls would enhance the State agency’s accurate
reporting of Medicaid expenditures in light of the other vulnerabilities in internal controls that
we have identified in this report.

The State agency’s comments appear in their entirety as the Appendix.




                                                  7

APPENDIX

                                                                                                                                                                     Page 1 of3


                            APPENDIX: ST ATE AGENCY COMMENTS 





12\
\rji                   COLORADO DEPARTMENT OF HEALTH CAREI'OlJCY & ft1NANCING
                       1570    Grant Street, Denver, CO 80203-1818 • (303) 866-2993. (303) 866-4411 Fax. (303) 866-3883 nY
                       John W. Hickenk>oper, Governor • SUsan E. Birch MBA, 8SN, RN, ExecutNe O"'ector




 January 25, 2011


 Patrick J. Cogley, Regional Inspector General for Audit Services 

 Office of the Inspector General 

 Otlice of Audit Services, Region VII 

 601 E. 121h St., Room 0429 

 Kansas City, MO 64106 



 Mr. Cogley:

 Please see the attached docwnent that contains the Department of Health Care Policy and
 Financing's submission of responses to the draft report entitled Review ofQuarterly Medicaid
 Statement ofExpenditures for the Medical Assistance Program in Colorado (Report Number A­
 07-11-02758).

 If you have any questions or comments, please contact me at 303-866-6575 or 

 kim.nguyen@state.co.us. 





 John Bartholomew 

 Financial & Administrative Services Office Director 


 JB: ktn

 cc: 	      Kim Nguyen, Audit Tracker and Analyst, Department of Health Care Policy and Financing
            James Kom. Audit Manager, Office of Inspector General




  .vrt.e mission ollhe Oep.rtmfnt of lteOllih Care Policy ,& fiftr;lfKinx b 10 impro'le acers5 to CoH-t1recliYt", quality he-tilth carr Wf\'it:\"i (or Coloradans"
                                                                       CQlorado.jJNIhtp!
                                                                                              Page 2 of3




                Department of Healtb Care Policy and Financing's 

                              Initial Response to tbe 

                    Department of Healtb & Human Services 

                            Offiee of Inspector General 

     Review ofthe Quarterly Medicaid Statement ofExpenditures for the Medical 

                         Assistance Program in Colorado 

                         Control Number A-07-11-017S8 

                                  December 1011 



RECOMMENDATIONS

We recommend tbat the State Agency:

       report $9,719 (Federal share) in drug rebate interest as a prior period
       adjustment on its next CMS-64 report;

       determine the drug rebate interest that should have been reported in
       previous quarters and report those amounts as prior period adjustments on
       its next CMS-64 report;

       ensure that drug rebate interest was correctly reported in subsequently filed
       CMS-64 reports, and if not, determine the correct amounts and report tbem
       as prior period adjustments on the next CMS-64 report; and

       strengthen internal controls to ensure that drug rebate interest rebates are
       correctly r eported during the quarter in which the interest on the rebates
       accrued, and that in all other respects Medicaid expenditures are correctly
       calculated, assigned, and claimed in accordance with the approved State
       plan.


Response: Partially Concur.

The Department agrees to report $9,719 (Federal Share) in drug rebate interest as a
prior period adjustment on its next CMS-64 report

The Department will work with the Centers Jor Medicare and Medicaid Services to
determine a reasonable number ojprior quarters to review in order to determine if drug
rebate interest should have been reported in these prior quarters. if it is determined that
drug rebate interest should have been reported in prior quarters, the amount determined
will be reported as a prior period adjustment on the next CMS-64 report.

The Department has recorded all drug rebate interest Jor Federal Fiscal Year 2009 and
2010 as prior period adjustments on the CMS-64 for the quarter ending December 31,
20//.



                                          10f2
                                                                                          Page 3 of3




Beginning with federal fiscal year 2011, the Department has been reporting drug rebate
interest correctly on the CMS-64.

The Department agrees that its internal controls related to calculating, assigning.
claiming and reporting ofdrug rebate interest can always be strengthened. In order to
address this recommendation, the Department has updated its CMS-64 policies and
procedures to ensure they specifically address the proper reporting of drug rebate
interest in the quarter in which the interest on drug rebates accrued,

The Department believes that it ·has adequate internal controls in place to ensure that
Medicaid costs are claimed and reported correctly. The Department disagrees with this
audit's blanket statement that it has inadequate controls related to its financial and
accounting poliCies and procedures. There were no other specific audit exceptions
disclosed to the Department, other than the Department 's claiming and reporting ofdrug
rebate interest, by the audit team performing this audit.




                                        2of2
